September 28, 2001

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	 Audit Report - Manual Payments on Rail Transportation Contracts (Report
          Number TR-AR-01-006)

This report presents the results of our audit of manual payments made on rail
transportation contracts (Project Number 00NA006TR000). The audit was initiated at
the request of Postal Service management. Our objectives were to determine whether
manual payments on rail transportation contracts were timely, and whether
management controls over these payments were adequate.

Our audit disclosed that manual payments were not timely as a result of data
inconsistencies within the Rail Management Information System. As a result, the
primary rail carrier for the Postal Service submitted manual claims totaling $7 million for
the period June 1999 through June 2000, of which $1.1 million remained outstanding
over 60 days as of June 30, 2000. Our audit also revealed that management controls
were not in place to ensure data was entered timely and accurately.

The report provided six recommendations to correct deficiencies including expediting
data entry and processing of claims requiring additional documentation. We
recommended that Postal Service management expedite the processing of claims
requiring additional research and documentation and require distribution networks
offices to immediately notify carriers of inadequate documentation. We also
recommended that Postal Service management expand training for Postal Service
employees and develop additional training and guidance for rail carrier representatives.
Finally, we recommended that management implement the recommendations in our
prior audit report related to accurate and timely data entry into the Rail Management
Information System.

Management agreed with our findings and recommendations, and we believe their
actions, taken or planned, should correct the issues identified. Management’s
comments and our evaluation of their comments are included in the report.
The Office of Inspector General (OIG) considers recommendations 1, 2, and 6
significant and, therefore, requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until OIG
provides written confirmation that the recommendations can be closed. We appreciate
the cooperation and courtesies provided by your staff during the audit. If you have any
questions, please contact Joe Oliva, director, Transportation and Delivery, at (703) 248-
2100, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment

cc:	 John A. Rapp
     Anthony M. Pajunas
     J. Dwight Young

     Patricia A. Jordan

     John R. Gunnels

Manual Payments on Rail                                                 TR-AR-01-006
 Transportation Contracts




                              TABLE OF CONTENTS

Executive Summary	                                                              i


Part I


Introduction	                                                                   1


   Background                                                                   1

   Objectives, Scope, and Methodology                                           2

   Prior Audit Coverage                                                         3


Part II


Audit Results	                                                                  5


   Payments to Rail Carriers Were Not Timely                                    5

      Inadequate Documentation Slowed Claims Processing                         5

      Actions Taken by the Rail Carrier                                         7

      Corrective Actions Taken by the Postal Service                            8

   Recommendations                                                              9

   Management’s Comments                                                        9

   Evaluation of Management’s Comments                                          9


   Management Controls Were Inadequate                                        10

      Timeliness of Data Entry                                                10

      Data Verification Practices Were Inadequate                             11

      Access to the Rail Management Information System Was Limited            11

   Recommendations                                                            12

   Management’s Comments                                                      12

   Evaluation of Management’s Comments                                        13


Appendix A.	 Number of Manual Claims Paid in Fiscal Year 1999                 15

             by Area Office and Processing Code


Appendix B.	 Rail Management Information System On-Time Data Entry            16

             Scores and Rankings by Bulk Mail Center and Area Office


Appendix C.	 Management’s Comments                                            17





                                 Restricted Information
Manual Payments on Rail                                                      TR-AR-01-006
 Transportation Contracts


                                   EXECUTIVE SUMMARY
 Introduction               The Office of Inspector General (OIG) conducted an audit of
                            the Postal Service's manual payments on rail transportation
                            contracts. The Postal Service requested that we review the
                            manual payments process because such payments are
                            paper and labor intensive, resulting in untimely payments to
                            rail carriers. Our objectives were to determine whether
                            manual payments on rail transportation contracts were
                            timely, and whether management controls over these
                            payments were adequate.

 Results in Brief	          Our audit disclosed manual payments on rail transportation
                            contracts were not timely due to data inconsistencies within
                            the Rail Management Information System. The manual
                            payment process increases workload because Postal
                            Service personnel must first review the claim, research the
                            trailers via the Rail Management Information System, and
                            contact bulk mail center personnel to verify movement.
                            Thus, payments to carriers are often delayed and
                            discrepancies exist. The primary carrier, who represented
                            42 percent of all payments made by the Postal Service for
                            rail transportation, had manual claims totaling $7 million for
                            the period June 1999 through June 2000. As of June 30,
                            2000, $1.1 million remained outstanding over 60 days.

                            With the untimely payment of these claims, the Postal
                            Service could have been liable for about $47,800 in interest
                            and penalties under the Prompt Payment Act. Since the
                            Postal Service and the carriers cannot agree to the original
                            submission date of the claims and what constitutes a proper
                            invoice, the Postal Service was not held liable for payment
                            of interest and penalties.

                            Upon initiating our fieldwork, the Postal Service expedited
                            the payment of claims by directing distribution networks
                            offices to conduct the necessary research to review and
                            verify outstanding claims submitted by the carrier.
                            However, timely processing of these claims is dependent on
                            the individuals responsible for researching and verifying the
                            information. Without proper procedures for research and
                            review, the problem with disputed claims will continue.

                            Our audit also disclosed that manual payments were
                            attributable to weak management controls, such as a lack of


                                               i
                                    Restricted Information
Manual Payments on Rail                                                      TR-AR-01-006
 Transportation Contracts


                            procedures for timely data entry, poor data verification
                            practices, and restricted access by some facilities to the Rail
                            Management Information System. In our previous report,
                            we identified these weaknesses in management controls
                            and actions needed to correct them. This audit revealed
                            that the Postal Service had not implemented the corrective
                            actions we previously recommended. Without reliable
                            information on rail trailer activity, the Postal Service cannot
                            take appropriate action to reduce or eliminate the number of
                            manual claims.

 Summary of                 To increase the timeliness of data input and strengthen
 Recommendations            controls over payments, we recommended the vice
                            president, Network Operations Management, coordinate
                            with the vice president, Purchasing and Materials, to
                            expedite the processing of claims requiring additional
                            research and documentation, and require distribution
                            networks offices to immediately notify carriers of inadequate
                            documentation.

                            We also recommended that the vice president, Network
                            Operations Management, coordinate with the vice president,
                            Purchasing and Materials, to expand training for Postal
                            Service employees and develop additional training and
                            guidance for rail carrier representatives on Rail
                            Management Information System data entry and payment
                            procedures. Finally, we recommended that the vice
                            president, Network Operations Management, coordinate
                            with the vice president, Purchasing and Materials, to
                            implement the recommendations in our prior audit report
                            related to standardizing and monitoring procedures for
                            accurate and timely data entry into the Rail Management
                            Information System.

 Summary of                 Management agreed with our recommendations. They
 Management’s               have transferred authority to area contracting officers to
 Comments                   approve payment from noncontract claims and have also
                            revised the management instruction on processing these
                            payments. This instruction will also formalize the
                            requirement to immediately notify rail carriers of inadequate
                            documentation. In addition, management will provide
                            training to rail carrier representatives on filing payment
                            claims and expand training to Postal Service employees.




                                               ii
                                    Restricted Information
Manual Payments on Rail                                                    TR-AR-01-006
 Transportation Contracts


                            To implement the recommendations in our prior audit report
                            related to accurate and timely data entry into the Rail
                            Management Information System, management will:

                            •	 Require follow-up communication and training with
                               facilities who consistently do not meet on-time data entry
                               goals.

                            •	 Implement a standard form to track data input to bulk
                               mail centers and a process to ensure that data is timely
                               and accurately entered into the system.

                            •	 Require areas to monitor daily e-mail reports from
                               carriers and reinforce practices allowing the system to
                               be updated within 4 hours.

                            Management’s comments, in their entirety, are included in
                            Appendix C of this report.

 Overall Evaluation of      Management’s comments are responsive to our
 Management’s               recommendations, and their actions taken and planned
 Comments                   should correct the conditions identified in this report.




                                              iii
                                    Restricted Information
Manual Payments on Rail                                                               TR-AR-01-006
 Transportation Contracts


                                                 INTRODUCTION
    Background                     The Postal Service’s annual budget for rail transportation is
                                   approximately $220 million, of which about 10 percent
                                   represents payments made via manual claim forms
                                   submitted by rail carriers. The Postal Service contracts with
                                   seven rail carriers to move mail and mail transport
                                   equipment between Postal Service facilities. Most mail
                                   transported by rail to bulk mail centers, processing and
                                   distribution centers, or customer facilities is moved on
                                   trailers provided by rail carriers.

                                   Payments to rail carriers are processed via the Rail
                                   Management Information System. The system compares
                                   data contained in three major files: (1) a scheme file that
                                   includes the trailer routing logic; (2) the in transit file that
                                   identifies trailer movement; and (3) the rate file showing the
                                   monetary terms of rail contracts and tariffs for line haul
                                   movements. This data contains originating and destinating
                                   information on trailers used in rail service and is entered
                                   through computer terminals at designated sites, which are
                                   primarily bulk mail centers. Postal Service and customer
                                   facilities without access to the Rail Management Information
                                   System either fax or phone trailer movements to the bulk
                                   mail center for data entry.

                                   Not all payments are processed through the Rail
                                   Management Information System. For example, some rail
                                   trailers are transported over routes where rates are not in
                                   effect, routing schemes do not exist, or data is untimely, not
                                   entered, or entered incorrectly. Since pricing information is
                                   not in the system, payments for these transactions have to
                                   be processed manually.

                                   To ensure proper payment for these claims, the Postal
                                   Service issued a management instruction1 establishing
                                   standard operating procedures for payments that are not
                                   processed within the system. With respect to payment
                                   certification where no rate exists, the management
                                   instruction requires distribution networks office personnel to
                                   prepare a file containing:



1
    Management Instruction PO-540-88-05, Rail Piggyback Payment, December 19, 1988.



                                                        1
                                             Restricted Information
Manual Payments on Rail                                                                              TR-AR-01-006
 Transportation Contracts




                                    •	 Postal Service Form 5186 (mail movement routing
                                       instructions) or accepted electronic data interchange
                                       transmission.

                                    •	 Report LAB498P1 (error report) and destination
                                       verification of receipt.

                                    •	 Letter from carrier.

                                    •	 Copy of Rail Management Information System van
                                       history reports (Van Inquiry and Van Record).

                                    •	 Screen print of an approved Postal Service Form 5994
                                       for services performed.

                                    Distribution networks office personnel record and research
                                    carrier claims for manual payments using Form 5994, which
                                    is processed through the Rail Management Information
                                    System.

    Objectives, Scope,
             The objectives of our audit were to determine whether
    and Methodology
                manual payments on rail transportation contracts were
                                    timely, and whether management controls, such as access
                                    to the Rail Management Information System, data entry,
                                    and verification practices, were adequate.

                                    We conducted work at Postal Service Headquarters, the
                                    Accounting Service Center in St. Louis, and
                                    nine judgmentally selected area offices:2 Allegheny, Capital
                                    Metro, Great Lakes, Mid Atlantic, Midwest, New York Metro,
                                    Northeast, Pacific, and Southeast. The sites selected
                                    represent 71 percent of the total manual payments for fiscal
                                    year (FY) 1999, according to the Rail Management
                                    Information System.

                                    To determine whether payments were timely, we reviewed
                                    Postal Service policy related to rail payments and analyzed
                                    the time associated with processing manual claims and
                                    related payment records for FY 1999. In addition, we
                                    extracted and reviewed data from Rail Management
                                    Information System reports, local databases, policies and

2
 Since the time of our audit the Postal Service has reorganized. The areas identified in this report reflect the
organization at the time of our fieldwork.



                                                           2
                                                Restricted Information
Manual Payments on Rail                                                     TR-AR-01-006
 Transportation Contracts


                            procedures for claims processing, and other relevant
                            documents. To validate and verify carrier payment
                            discrepancies, we interviewed carrier representatives and
                            analyzed Postal Service payment activity. Our audit
                            focused on the primary carrier that received $73 million in
                            payments in FY 2000, which represented 42 percent of all
                            payments made by the Postal Service for rail transportation.
                            This carrier also represented 43 percent of the rail
                            transportation market with more than 50,000 Postal Service
                            rail dispatches.

                            To document management controls, we observed
                            operations and interviewed area distribution networks office
                            personnel responsible for processing manual claims, facility
                            transportation managers, and employees at the sites visited.
                            In addition, we reviewed manual claims received from the
                            carriers and analyzed the total claims paid for FY 1999 by
                            area office and payment type.

                            Our audit was conducted from July 2000 through
                            September 2001 in accordance with generally accepted
                            government auditing standards and included such tests of
                            internal controls as were considered necessary under the
                            circumstances. We discussed our findings with
                            management officials and included their comments, where
                            appropriate.

 Prior Audit Coverage	 Our September 22, 1999, report, Opportunities for Savings
                       in Freight Rail Detention Costs (TR-AR-99-001), concluded
                       that Rail Management Information System data on trailer
                       activity and location was unreliable. To address these
                       problems, we recommended the chief operating officer work
                       with the vice president, Network Operations Management,
                       and the vice presidents, Area Operations to:

                            •	 Monitor and provide feedback to facilities that do not
                               consistently meet Postal Service Headquarters'
                               expectations for on-time entry into the system.

                            •	 Establish confirmation procedures for facilities that do
                               not have full access to the system to ensure that data is
                               received and entered by the bulk mail centers.




                                               3
                                    Restricted Information
Manual Payments on Rail                                                   TR-AR-01-006
 Transportation Contracts




                            •	 Implement standard data verification practices as close
                               as possible to the time of entry of system data.

                            Postal Service management agreed with the
                            recommendations.




                                               4
                                    Restricted Information
Manual Payments on Rail                                                                     TR-AR-01-006
 Transportation Contracts


                                                 AUDIT RESULTS
Payments to Rail                Our audit disclosed manual payments on rail transportation
Carriers Were Not               contracts were not timely due to data inconsistencies within
Timely                          the Rail Management Information System. Many payments
                                were delayed because extensive research was required to
                                process claims for payment.

    Inadequate                  Although procedures exist to research, verify, and process
    Documentation               manual payment claims, the Postal Service was not timely in
    Slowed Claims               verifying and paying claims submitted by its primary rail
    Processing                  carrier. In June 1999, this carrier disputed $64,576 in unpaid
                                claims. Between June 1999 and June 2000, additional claims
                                were disputed, and the outstanding amount grew to an
                                estimated $1.1 million.

                                The Prompt Payment Act requires the government, including
                                the Postal Service, to pay its bills on time or face interest
                                penalties. Under the Prompt Payment Act, if no payment date
                                is specified in a contract, the Postal Service is required to pay
                                the contractor no later than 30 days after the receipt of the
                                invoice. The law requires the postmaster general to issue
                                implementing regulations. On March 7, 2000, the Postal
                                Service issued a management instruction3 requiring prompt
                                payment of debts owed by the Postal Service to suppliers for
                                equipment, supplies, and services. In accordance with the
                                law, the management instruction requires payment of a proper
                                invoice no later than 30 days after receipt. Further, if an
                                invoice is improper the supplier must be notified of the error,
                                defect, or impropriety within 7 days of the Postal Service’s
                                receipt of the invoice. Despite Prompt Payment Act
                                requirements, the carrier’s claims of $1.1 million remained
                                outstanding for over 60 days. Further, about 50 percent of the
                                $1.1 million represented rail service claims without supporting
                                documentation as required in the management instruction,
                                Rail Piggyback Payment.

                                Postal Service personnel attributed untimely payments to the
                                amount of time it took to research claims that were not
                                supported with adequate documentation or that showed
                                discrepancies. There is also a lack of standard operating
                                procedures when documentation is either hard to locate or
                                nonexistent. Late processing of claims was also caused by

3
    Management Instruction FM-610-2000-2, Compliance With the Prompt Payment Act, March 7, 2000.



                                                        5
                                             Restricted Information
Manual Payments on Rail                                                                                   TR-AR-01-006
 Transportation Contracts


                                   lack of consistent research efforts by Postal Service
                                   employees. Without proper procedures for research and
                                   review, the problem with disputed claims will continue.

                                   At all nine sites we visited, the distribution networks office
                                   personnel dedicated approximately 1 hour per claim to verify
                                   the 12,926 manual claims identified in Appendix A. Although
                                   only 10 percent of rail payments were processed manually,
                                   the hour associated with verifying each claim is an inefficient
                                   use of Postal Service resources compared to the 3 minutes
                                   for automated processing.

                                   Postal Service personnel at distribution networks offices and
                                   at bulk mail centers identified inadequately trained Postal
                                   Service staff and customers and the absence of standard
                                   procedures for data entry as causes for manual claims.

                                   With the nonpayment of claims from June 1999 to June 2000,
                                   the Postal Service could have been liable for about $47,800 in
                                   interest and penalties under the Prompt Payment Act. Since
                                   the Postal Service and the carrier cannot agree to the original
                                   submission date of the claims and what constitutes a “proper”
                                   invoice, to-date the Postal Service has not been liable for the
                                   interest and penalties under the law. In addition, the carrier
                                   indicated it has provided emergency service outside the
                                   contract. However, due to problems receiving payments, the
                                   carrier is no longer providing emergency rail transportation
                                   service to the Postal Service. Further, the carrier indicated
                                   that it believes the current manual payment process is not
                                   efficient and that they had to settle on negotiated amounts
                                   with the Postal Service.

                                   The carrier acknowledged some responsibility for poor
                                   documentation and indicated that the distribution networks
                                   office personnel were supportive in trying to resolve payment
                                   discrepancies. However, it identified three4 distribution
                                   networks offices where communication and research
                                   problems continue to exist. Issues included poor
                                   communication, nonresponsiveness to e-mail messages,
                                   unwillingness to research disputed claims, and unavailability
                                   of personnel to process claims. The Postal Service stated



4
    The carrier identified the Allegheny, Mid Atlantic, and Capital Metro Areas as the biggest problem areas.



                                                            6
                                                 Restricted Information
Manual Payments on Rail                                                                                  TR-AR-01-006
 Transportation Contracts



                                   that due to staffing changes, they have a limited number of
                                   resources available to dedicate to the additional research and
                                   communication needed to timely resolve the discrepancies.

    Actions Taken by the	 Although the Postal Service gave some attention to the
    Rail Carrier	         problem of disputed claims,5 the amount in dispute continued
                          to grow. To expedite the processing of the $1.1 million in
                          outstanding manual claims and to help the Postal Service
                          provide corrective action and avoid reoccurrence of these
                          problems, the carrier agreed to identify those route segments
                          that continue to result in manual payments. Listed below is a
                          table that contains the contractor’s trend analysis summary of
                          Postal Service rail transportation contract segments totaling
                          $910,155 and the corresponding distribution networks office
                          responsible for manual rail payments from June 1999 through
                          February 2000.

                                                      Table 1:
                                    ROUTE SEGMENTS RESULTING IN MANUAL PAYMENTS

                                       Distribution                  Number of                  Total Value
                                      Networks Office                Segments                  of Segments
                                        Allegheny                      312                        $310,715
                                        Capital Metro                  283                         274,370
                                        Great Lakes                     68                          66,340
                                        Mid-Atlantic                    41                          39,200
                                        Midwest                         13                          14,260
                                        New York                        81                          79,110
                                        Northeast                       96                          92,160
                                        Southeast                       22                          22,000
                                        Southwest                       12                          12,000
                                        Total                          928                        $910,155

                                   After completing our initial fieldwork, we received additional
                                   information from the carrier about the untimely payment of
                                   claims. The carrier stated that it has added procedures that
                                   are helping to reduce the number of manual payments. The
                                   carrier noted that it has negotiated an amount for outstanding
                                   bills from FY 1999, all of which have been paid by the Postal
                                   Service. In addition, the outstanding total for FY 2000 is



5
    A representative from the Southeast Area office provided additional help to research outstanding claims.



                                                            7
                                                 Restricted Information
Manual Payments on Rail                                                            TR-AR-01-006
 Transportation Contracts



                            approximately $500,000 and could also be subject to interest
                            and penalties under the Prompt Payment Act if not paid
                            timely.

                            The carrier stated it is still encountering difficulty in getting
                            distribution networks offices to review manual claims.
                            Specifically, the carrier was told payments were slow due to
                            limited time and resources dedicated to research. Although a
                            representative of the carrier indicated the number of
                            outstanding bills has been declining since July 2000, getting
                            information entered properly and timely into the Rail
                            Management Information System is still a problem. As a
                            result, the Postal Service’s relationship with the carrier has
                            been harmed.

 Corrective Actions         Upon initiating our audit fieldwork, the Postal Service took
 Taken by the Postal        immediate action to process the backlog of claims. Postal
 Service                    Service Headquarters directed distribution networks offices to
                            research and verify outstanding carrier claims. As of
                            March 2001, the Postal Service had paid all of the claims
                            except for $302,313. On March 13, 2001, the carrier and the
                            Postal Service negotiated to settle the outstanding amount for
                            $131,609.

                            To help resolve these outstanding claims, the Postal Service
                            instructed the carrier to review its records, obtain as much
                            backup documentation as possible, and resubmit the claims.
                            Postal Service personnel processed and paid claims that had
                            sufficient documentation. Claims needing further review were
                            forwarded to Postal Service Headquarters for final approval or
                            negotiation. The table below summarizes these transactions:

                                                   Table 2:

                                          RESOLUTION OF OUTSTANDING

                                            MANUAL PAYMENT CLAIMS


                                $1,100,000         Claims outstanding as of June 30, 2000
                                   797,687         Claims verified/paid as of March 2001
                                $ 302,313          Claims outstanding as of March 2001

                                $ 131,609          Amount of negotiated settlement




                                                 8
                                      Restricted Information
Manual Payments on Rail                                                         TR-AR-01-006
 Transportation Contracts




 Recommendation	            We recommend the vice president, Network Operations
                            Management, coordinate with the vice president, Purchasing
                            and Materials, to update and expand procedures to:

                               1.	 Expedite the processing of claims requiring additional
                                   research and documentation.

 Management’s               Management agreed with our finding and recommendation
 Comments                   and has transferred final authority for approving payments
                            from noncontract claims from headquarters to distribution
                            networks office contracting officers. Management has also
                            revised the management instruction on processing manual rail
                            payments, which will be published in the near future.

 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation and their actions taken and planned should
 Comments                   correct the conditions identified in this report.

 Recommendation                2. Require distribution networks offices to immediately
                                  notify carriers of inadequate documentation.

 Management’s	              Management agreed with our finding and recommendation.
 Comments	                  The management instruction referred to in management’s
                            response to recommendation 1 formalizes the requirement for
                            distribution networks area offices to immediately notify rail
                            carriers of inadequate documentation.

 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation and their actions taken and planned should
 Comments                   correct the conditions identified in this report.




                                                 9
                                      Restricted Information
Manual Payments on Rail                                                                           TR-AR-01-006
 Transportation Contracts




    Management                 The Postal Service had not implemented the
    Controls Were              recommendations from our previous report6 to ensure that
    Inadequate                 data is input timely and correctly. This audit disclosed that
                               manual payments were attributable to weak management
                               controls, such as lack of procedures for timely data entry, poor
                               data verification practices, and restricted access by some
                               facilities to the Rail Management Information System. Without
                               reliable information on rail trailer activity, the Postal Service
                               cannot take appropriate action to reduce or eliminate the
                               number of manual claims.

    Timeliness of Data         Interviews with the distribution networks office officials
    Entry                      disclosed that manual payments occur because Rail
                               Management Information System data entry was not input
                               timely and correctly to ensure accurate and complete data for
                               use as a management tool. We identified nine Postal Service
                               areas where data was either entered incorrectly or was not
                               entered into the Rail Management Information System,
                               resulting in 12,926 manual claims7 in FY 1999.

                               Postal Service policy8 states data must be input immediately
                               after events occur, and in no case later than 4 hours
                               afterwards. In addition, the Rail Management Information
                               System does not permit origination data to be entered if
                               48 hours have passed since the trailer has been dispatched.
                               Because the system operates in real time, reduction of
                               manual payments is totally dependent on the employees
                               responsible for collecting and inputting the required data.

                               In addition to implementing stronger controls and updating
                               procedures, employees should be trained to ensure
                               compliance with data entry procedures. Although four of the
                               nine9 distribution networks office personnel we spoke to
                               stated that training was provided to employees in their
                               respective areas, problems resulting from the lack of
                               standardized procedures for entering rail service data
                               continue to exist.




6
  Opportunities for Savings in Freight Rail Detention Costs (Report Number TR-AR-99-001, September 23, 1999).
7
  This is a conservative estimate and may not include all manual claims for 1999. See Appendix A, footnote.
8
  Rail Management Information System Handbook, (PO-505, March 1992).
9
  The Great Lakes, Midwest, New York Metro, and Southeast Area offices provided training to field employees.



                                                      10
                                            Restricted Information
Manual Payments on Rail                                                                                    TR-AR-01-006
 Transportation Contracts



 Data Verification                Poor management controls can affect the integrity of data.
 Practices Were                   Inaccurate data can result in the deletion of trailer information
 Inadequate                       from the system and an inability to track and verify trailer
                                  numbers. For example, we identified three distribution
                                  networks offices where rail carriers submitted claims for the
                                  same trailers that the Postal Service had already paid10
                                  because controls were not in place to ensure trailer activity
                                  data was entered and verified correctly. Thus, distribution
                                  networks offices had to spend additional hours researching
                                  trailer activity to prevent duplicate payments. These
                                  management control weaknesses prevented the Postal
                                  Service from accurately processing data and reducing the
                                  number of manual payments made to rail carriers.

                                  Our review also disclosed that the lack of standard
                                  procedures for data verification provides no assurance that
                                  Rail Management Information System data is accurate and
                                  employees are notified of data inaccuracies. Distribution
                                  networks office officials receive weekly performance reports
                                  on data entry and verification practices for all facilities in their
                                  area, and are expected to review the scores and provide
                                  feedback to facilities receiving low scores. While officials at
                                  all of the areas reviewed weekly reports to monitor trailer
                                  activity and data entry, we identified two11 distribution
                                  networks offices whose personnel responsible for meeting
                                  data entry standards did not receive the required feedback on
                                  their performance. Because the scores are verified and
                                  employees are not provided feedback on their performance,
                                  manual payments will continue to occur.

 Access to the Rail               The lack of access to the Rail Management Information
 Management                       System has also contributed to the number of manual claims.
 Information System               The distribution networks office officials disclosed that not all
 Was Limited                      mail transport equipment service centers, customer facilities,
                                  and warehouses have access to the Rail Management
                                  Information System. Of the nine area offices visited, 4 areas12
                                  attributed manual payments to facilities not having
                                  direct access to the Rail Management Information System.
10
   The Southeast, Northeast, and Mid-West areas received claims from carriers where payments had already been
made. Although the dollar amounts we identified were not significant, the potential exists for this problem to grow.
11
   Personnel at the Pacific and New York Metro Areas stated they only track performance scores and provided
feedback only when requested by Postal Service Headquarters.
12
   The distribution networks office officials in the Southeast, Allegheny, Capital Metro, and New York Metro areas
stated their manual claims were attributed, in part, to facilities in their reporting area not having access to the Rail
Management Information System.



                                                          11
                                                Restricted Information
Manual Payments on Rail                                                                   TR-AR-01-006
 Transportation Contracts




                                  The facilities with no access or “inquiry only” capability
                                  telephone or fax rail information to the servicing bulk mail
                                  center for data entry. Sometimes the fax transmissions are
                                  hard to read or are received after trailers have been
                                  dispatched. We identified two13 areas whose bulk mail
                                  centers had on-time data entry scores consistently among the
                                  lowest due to the absence of direct access to the Rail
                                  Management Information System. These areas and their
                                  corresponding bulk mail centers are identified in Appendix B.

                                  According to Postal Service policy, for the Rail Management
                                  Information System to function effectively, there must be a
                                  cooperative relationship between distribution networks offices
                                  and bulk mail centers. Origin and destination information on
                                  trailer activity must be recorded timely and accurately by all
                                  facilities. In our judgment, without procedures for confirmation
                                  of data receipt and entry, it is likely that bulk mail centers are
                                  not receiving all information on rail activity or entering data
                                  timely.

                                  Since accurate processing and payment of manual claims is
                                  dependent upon the ability to track and verify trailer location, if
                                  these recommendations had been fully implemented, the
                                  conditions in the current audit would have been either
                                  minimized or resolved. Therefore, we are making these
                                  recommendations again.

 Recommendation	                  We recommend the vice president, Network Operations
                                  Management, coordinate with the vice president, Purchasing
                                  and Materials, to:

                                      3.	 Expand training for Postal Service employees and
                                          develop additional training and guidance for rail carrier
                                          representatives on Rail Management Information
                                          System data entry and payment procedures.

 Management’s	                    Management agreed with our finding and recommendation
 Comments	                        and will provide rail carrier representatives training on
                                  procedures for filing payment claims. Management will also
                                  expand training for Postal Service employees based on the
                                  revised management instruction.


13
     The areas are the Allegheny and New York Metro Area offices.



                                                         12
                                               Restricted Information
Manual Payments on Rail                                                           TR-AR-01-006
 Transportation Contracts




 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation, and their actions taken and planned should
 Comments                   correct the conditions identified in this report.

 Recommendation
            Although the Postal Service agreed with and addressed the
                            recommendations in our prior audit report, the procedures put
                            in place did not solve the problems we identified. Therefore,
                            we are recommending that the vice president, Network
                            Operations Management, coordinate with the vice president,
                            Purchasing and Materials, to implement the following prior
                            audit report recommendations:

                               4.	 Monitor and provide feedback to facilities that do not
                                   consistently meet headquarters' expectations for on-
                                   time entry of Rail Management Information System
                                   data.

 Management’s               Management agreed with our finding and recommendation.
 Comments                   Management provides weekly reports to areas and facilities
                            on their performance for on-time data entry and will also
                            require follow-up communication and training with facilities
                            who consistently do not meet on-time data entry goals, with
                            updates on actions to improve low scores.

 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation, and their actions taken and planned should
 Comments                   correct the conditions identified in this report.

 Recommendation                5.	 Establish confirmation procedures for facilities that do
                                   not have full access to the Rail Management
                                   Information System to ensure that data on trailer
                                   activity is received and entered by the bulk mail
                                   centers.

 Management’s	              Management agreed with our finding and recommendation
 Comments	                  and will implement a standard form to track the faxing of data
                            to bulk mail centers for data input. Management will also
                            implement a process to ensure that data is accurately and
                            timely entered into the system.




                                                13
                                      Restricted Information
Manual Payments on Rail                                                            TR-AR-01-006
 Transportation Contracts



 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation, and their actions taken and planned should
 Comments                   correct the conditions identified in this report.

 Recommendation                6. Implement standard data verification practices as close
                                  as possible to the time of entry of Rail Management
                                  Information System data.

 Management’s               Management agreed with our finding and recommendation
 Comments                   and will reestablish the requirement that areas monitor daily e-
                            mail reports from rail carriers and follow up on trailers reported
                            as not in the system. Management will also reinforce
                            practices allowing the system to be updated within 4 hours of
                            an overdue report.

 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation, and their actions taken and planned should
 Comments                   correct the conditions identified in this report.




                                                14
                                      Restricted Information
          Manual Payments on Rail                                                                                TR-AR-01-006
           Transportation Contracts


                                                           APPENDIX A

                   NUMBER OF MANUAL CLAIMS PAID IN FISCAL YEAR 1999
                        BY AREA OFFICE AND PROCESSING CODE*
    AREA                                                                                                                             AREA
   OFFICE           DAM          DET          ERR          EQQ          MSR         MSU          NDR         NRC        NSH          TOTAL
New York
Metro                     93          570             0           0           138           0           0           0            0      801

Northeast                669          620             0           0             0           0           0           0            0     1,289

Allegheny                104            0             0         860             0           0         670           0            0     1,634

Mid-Atlantic             200            0             0           0             0           0         328           0            0      528

Western                    0            0           372           0             0           0           0           0            0      372

Pacific                  437          346             0           0             0           0           0           0            0      783

Southwest                  0            0             3           0             0        432            0           0            0      435

Southeast                498        1,296           942          18             0        176            0           0            0     2,930

Midwest                1,503          275             0           0           315           0           0           0            0     2,093

Great Lakes              312          657             0           0            99           0           0           0            0     1,068

Capitol Metro            300            0             0         257           436           0           0           0            0      993




Type Totals            4,116        3,764        1,317        1,135           988        608          998           0            0 **12,926



                  *Legend
          DAM    Damage to Van
          DET    Detention Adjustment
          ERR    Data Entry Error
          EQQ    Equipment
          MSR    Misroute of Van
          MSU    Misuse of Van
          NDR    No Data in the Rail Management Information System
          NRC    No Rail Management Information System contract
          NSH    No Rail Management Information System scheme


          **This is a conservative estimate and may not include all manual claims for 1999. Our initial inquiry included only
          those claims that met established data retention criteria at the time the requested files were downloaded. Also, the
          totals do not include those claims still pending further review.




                                                                    15
                                                          Restricted Information
Manual Payments on Rail                                                                               TR-AR-01-006
 Transportation Contracts


                                               APPENDIX B

               RAIL MANAGEMENT INFORMATION SYSTEM ON-
            TIME DATA ENTRY SCORES AND RANKINGS BY BULK
                     MAIL CENTER AND AREA OFFICE

                                  YEAR TO                         YEAR TO
      BULK MAIL                    DATE                            DATE
       CENTER                       FY 99            RANK          FY 00          RANK          AREA OFFICE

 KANSAS CITY                         97%                1            100%            1        Midwest
 ST. LOUIS                           97%                2             99%            2        Midwest
 MEMPHIS                             93%                3             96%            3        Southeast
 SEATTLE                             90%                4             92%            7        Western
 SAN FRANCISCO                       89%                5             93%            6        Pacific
 DENVER                              88%                6             92%            9        Western
 DES MOINES                          88%                7             89%            12       Midwest
 DETROIT                             87%                8             93%            5        Great Lakes
 JACKSONVILLE                        87%                9             92%            8        Southeast
 LOS ANGELES                         86%                10            90%            11       Pacific
 SPRINGFIELD                         84%                11            82%            18       Northeast
 DALLAS                              84%                12            93%            4        Southwest
 WASHINGTON                          81%                13            91%            10       Capital Metro
 ATLANTA                             81%                14            84%            17       Southeast
 PITTSBURGH                          80%                15            87%            14       Allegheny
 ST. PAUL                            79%                16            89%            13       Midwest
 PHILADELPHIA                        77%                17            78%            19       Allegheny*
 GREENSBORO                          71%                18            85%            16       Mid-Atlantic
 CHICAGO                             69%                19            86%            15       Great Lakes
 NEW JERSEY                          62%                20            61%            21       New York Metro*
 CINCINNATI                          60%                21            65%            20       Allegheny*


*Areas identified whose bulk mail center on-time data entry scores were consistently among the lowest due, in part,
to the absence of direct access to the Rail Management Information System.




                                                        16
                                              Restricted Information
Manual Payments on Rail                               TR-AR-01-006
 Transportation Contracts


                  APPENDIX C. MANAGEMENT’S COMMENTS




                                       17

                             Restricted Information
Manual Payments on Rail                              TR-AR-01-006
 Transportation Contracts




                                      18

                            Restricted Information
Manual Payments on Rail                              TR-AR-01-006
 Transportation Contracts




                                      19

                            Restricted Information
